XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
455 GOLDEN GATE AVENUE, SUITE 11000
SAN FRANCISCO, CA 94102-7004

Public: (415) 510-4400
Telephone: (415) 510-3896
Facsimile: (415) 703-2552
E-Mail: Josh.Patashnik@doj.ca.gov

August 18, 2020

Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Request for extension of time to file response to petition
Cedar Point Nursery et al. v. Victoria Hassid et al.
S. Ct. No. 20-107

Dear Mr. Harris:
I am counsel for the respondents in this case. Petitioners filed their petition for a writ of
certiorari on July 29, 2020. According to the online docket and pursuant to Rule 15.3 of the
Rules of the Supreme Court of the United States, a response is currently due on September 2,
2020. Pursuant to Rule 30.4, respondents respectfully request that the time for filing a response
be extended by 30 days, to and including October 2, 2020.
This is respondents’ first request for an extension of time to file a response. Good cause
exists for the requested extension. I did not represent respondents in this case in the district court
or court of appeals, and thus require sufficient time to familiarize myself with the relevant legal
issues and record. Apart from this case, I represent the State of California in several other
matters that will require me to devsote substantial amounts of time in the coming weeks. In
addition, the response must be reviewed by multiple attorneys within the California Department
of Justice, as well as attorneys at the California Agricultural Labor Relations Board. An
extension of time would better enable preparation of a response that would be most helpful to the
Court.
Accordingly, respondents respectfully request that the time for filing a response to the
petition for writ of certiorari be extended by 30 days, to and including October 2, 2020. Counsel
for the petitioners, Wencong Fa, has informed me by email that petitioners do not object to this
request.

August 18, 2020
Page 2

Sincerely,
/s/ Joshua Patashnik
JOSHUA PATASHNIK
Deputy Solicitor General
For

cc:

XAVIER BECERRA
Attorney General

Wencong Fa, Counsel of Record for Petitioners
Pacific Legal Foundation
wfa@pacificlegal.org

